





No. 20-260








In the Supreme Court of the United States
BBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBB
PERSONAL AUDIO, LLC,
v.

Petitioner,

CBS CORPORATION,
Respondent.
_____________________________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Federal
Circuit
_____________________________________
BRIEF IN OPPOSITION
_____________________________________
Steven M. Lieberman
ROTHWELL, FIGG, ERNST & MANBECK, P.C.
607 14th Street, N.W., Suite 800
Washington, DC 20005
Telephone: 202-783-6040
slieberman@rfem.com
Counsel for Respondent







i
QUESTION PRESENTED
1.

Whether the Court of Appeals correctly held
that Petitioner had waived its challenges to the
application of collateral estoppel to its claims
for infringement of patent claims that had
already been determined (by the PTAB and the
Court of Appeals for the Federal Circuit) to be
invalid, by failing to raise those arguments in
the district court?

2.

Whether the Court of Appeals correctly held
that
Petitioner’s
challenges
to
the
constitutionality of the inter partes review that
invalidated its patent claims were properly
addressed in its appeal of that decision rather
than in the appeal of the collateral
infringement litigation?



ii
LIST OF PARTIES AND CORPORATE
DISCLOSURE STATEMENT
All parties are identified in the caption of this
brief. The following corporations and publicly held
companies own 10% or more of stock in Respondent
CBS Corporation: ViacomCBS Inc.



iii
TABLE OF CONTENTS
QUESTION PRESENTED ......................................... i
LIST OF PARTIES AND CORPORATE
DISCLOSURE STATEMENT ......................... ii
TABLE OF AUTHORITIES ..................................... iv
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISION INVOLVED ............................... 1
STATEMENT OF THE CASE ................................... 2
REASONS TO DENY THE PETITION .................... 7
CONCLUSION ......................................................... 11




iv
TABLE OF AUTHORITIES
Cases
Blonder-Tongue Labs, Inc. v. Univ. of Ill. Found.,
402 U.S. 313 (1971)
Personal Audio, LLC v. Elec. Frontier
Foundation,
867 F.3d 1246 (Fed. Cir. 2017)
XY, LLC v. Trans Ova Genetics, L.L.C.,
890 F.3d 1282 (Fed. Cir. 2018)
Statutes
28 U.S.C. § 1254(1)
35 U.S.C. § 101



1
Respondent CBS Corporation respectfully
submits that the Petition for a writ of certiorari
should be denied.
OPINIONS BELOW
The order of the Court of Appeals (Pet. App. 1a)
is published at 946 F.3d 1348 (Fed. Cir. 2020). The
order of the Court of Appeals denying panel rehearing
and rehearing en banc is unreported (Pet. App. at
13a). The opinion of the District Court is unreported.
(Pet. App. at 11a).
JURISDICTION
The judgment of the Court of Appeals was
entered on January 10, 2020, and the Court of
Appeals entered its order denying rehearing on April
1, 2020. The jurisdiction of this Court is invoked
under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISION INVOLVED
Article II, Section 2, Clause 2 of the United
States provides:
. . . and [the President] shall nominate,
and by and with the Advice and Consent of
the Senate, shall appoint Ambassadors,
other public Ministers and Consuls,
Judges of the supreme Court, and all other
Officers of the United States, whose
Appointments are not herein otherwise



2
provided for, and which shall be
established by Law; but the Congress may
by Law vest the Appointment of such
inferior Officers, as they think proper, in
the President alone, in the Courts of Law,
or in the Heads of Departments.
The Seventh Amendment of the United States
Constitution provides:
In Suits at common law, where the
value in controversy shall exceed twenty
dollars, the right of trial by jury shall be
preserved, and no fact tried by a jury, shall
be otherwise reexamined in any Court of
the United States, than according to the
rules of the common law.
STATEMENT OF THE CASE
1.
This Petition is the second that Petitioner has
filed seeking to challenge the effects of the decision by
the Patent Trial and Appeal Board (“PTAB”)
determining that claims 31-35 of U.S. Patent No.
8,112,504 (“the ’504 patent”) are invalid. In 2014, the
PTAB made that determination in an inter partes
review proceeding initiated by the Electronic Frontier
Foundation. Petitioner appealed that decision to the
United States Court of Appeals for the Federal
Circuit.
In that appeal, Petitioner argued
unsuccessfully that the PTAB’s invalidation of its
patent claims violated the Seventh Amendment. A
panel of that court unanimously affirmed the PTAB



3
decision. Personal Audio, LLC v. Elec. Frontier
Foundation, 867 F.3d 1246 (Fed. Cir. 2017).
Petitioner’s petition for a writ of certiorari with
respect to that decision was denied. 138 S.Ct. 1989
(2018).
2.
This prior appellate process occurred in
tandem with the district court litigation between
Petitioner and CBS Corporation (“CBS”). For its own
strategic reasons, Petitioner voluntarily agreed to
stay its district court litigation for over three years
pending resolution of the PTAB proceeding and the
appeals relating thereto. Petitioner filed suit against
CBS in the United States District Court for the
Eastern District of Texas on April 11, 2013, asserting
that CBS infringed claims 31-34 of the ’504 patent.
That suit went to trial in September 2014. CBS
moved for judgment as a matter of law at the close of
evidence on the grounds that the asserted claims were
invalid, not infringed, and also on the ground that the
asserted claims were directed to ineligible subject
matter under 35 U.S.C. § 101. On September 15,
2014, the jury returned a verdict finding that
Petitioner had proved infringement by a
preponderance of the evidence, and that CBS had not
proved the claims were invalid by clear and
convincing evidence. CBS then renewed its motions
for judgment as a matter of law.
3.
On April 10, 2015, before briefing was
completed on CBS’s motions for judgment as matter
of law, and before any final judgment was entered, the
PTAB issued its decision determining that the claims



4
of the ’504 patent at issue in the district court
litigation were invalid. Petitioner and CBS jointly
moved to stay the district court litigation pending
Petitioner’s appeal of that PTAB decision. In that
joint motion, the parties asserted that the “final
outcome of said appeal is likely to affect the outcome
of this matter” and that a stay would “save this Court
and the parties time and effort.” Pet. App. 20a. The
district court granted the joint stay motion on April
30, 2015.
4.
The district court case remained stayed until
the denial of Petitioner’s petition for a writ of
certiorari on May 14, 2018, ended its appeal of the
PTAB decision determining that the asserted claims
of the ’504 patent were invalid. On May 29, 2018,
Petitioner and CBS submitted a Joint Status Report
to the district court. In that Report, CBS argued, inter
alia, that Petitioner was collaterally estopped from
challenging the invalidity of claims 31-34 of the ’504
patent. Petitioner did not present any argument to
the district court to oppose the application of
collateral estoppel. Pet. App. 20a. Instead, Petitioner
stated that it “did not oppose entry of judgment under
a reservation of its right to appeal.” Id. Petitioner
explained its position as follows:
However, Personal Audio believes that
current authority supports rendering a
judgement in favor of the Defendant CBS
so that these issues can be appealed.
Personal Audio agrees there is no current
precedent for doing otherwise at this time,



5
although Personal Audio reserves its
rights to argue these issues on appeal.
4.
The district court entered judgment on July 11,
2018, noting that the “Parties agree that current
authority requires rendering a judgment in favor of
CBS.” One week later, the Patent Office cancelled
claims 31-35 of the ’504 patent. Petitioner appealed
from the district court’s judgment on August 10, 2018.
5.
On January 10, 2020, the Federal Circuit
affirmed the district court’s judgment. The panel
explained that there were two independent bases for
its affirmance:
To the extent that Personal Audio
challenges the Board’s final written
decision, the district court lacked
jurisdiction to consider the challenges, and
we have no jurisdiction to review them on
appeal from the district court’s judgment.
The exclusive avenue for review was a
direct appeal from the final written
decision. To the extent that Personal
Audio challenges the district court’s
determination of the consequences of the
affirmed final written decision for the
proper disposition of this case, Personal
Audio conceded that governing precedent
required judgment for CBS. We therefore
affirm the district court’s judgment.



6
Petitioner’s motion for rehearing en
banc was denied on April 1, 2020.
6.
The Petition attempts to gloss over a critical
fact issue that is central to Petitioner’s request for
certiorari: the PTAB’s invalidity determination was
based on prior art that was not before the jury at all.
The PTAB’s invalidity determination rested on two
independent grounds. One of those grounds, the
Patrick/CBC reference, was not presented to the jury
as a basis for invalidity of the asserted claims of the
’504 patent. The other reference relied on by the
PTAB to support its invalidity determination was
different from, but related to, one of the references
that was before the jury. Because the Patrick/CBC
reference provided an independent basis for
invalidating Claims 31-35 of the ’504 patent, any
factual overlap between the art before the jury and
the other art is irrelevant to Petitioner’s claims.
In the very first paragraph of its Statement of
the Case, Petitioner makes the factual representation
that certain prior art references relied upon by CBS
in the jury trial on validity “are factually
indistinguishable from the Patrick/CBC reference.”
This is not correct and, critically, no court below has
so held (or even been asked to address this issue). The
three prior art references at issue in the jury trial are
completely unrelated to, and factually different than,
the Patrick/CBC reference on which the PTAB based
its invalidity determination. Petitioner does not deny
that the references are not the same publications. See
Petition at 8 (conceding that “the EFF cited slightly



7
different publications in its IPR petition”). Petitioner
nonetheless asserts—without support from any
precedent from this Court—that the reexamination
clause can apply based on the alleged similarity of the
references. Because Personal Audio did not make any
Seventh Amendment argument before the district
court, there was no factual determination below as to
the factual similarities vel non of these references.
What is undisputed is that the PTAB decision
invalidating Claims 31-34 of the ’504 patent (the
decision that was affirmed on appeal and as to which
this Court denied certiorari) rested upon a prior art
reference that was not presented to the jury.
REASONS TO DENY THE PETITION
1.
Petitioner did not argue in the Petition that
there is any conflict in the Federal Circuit as to the
impact of a final determination of invalidity of patent
claims on an ongoing litigation alleging infringement
of those claims—particularly where there has been no
judgment entered in that ongoing litigation. The
panel’s decision was unanimous and rehearing en
banc was denied. Petitioner also does not identify any
Federal Circuit cases that are in conflict with the
decision here, or even any dissent articulating the
position that Petitioner advocates.
2.
Petitioner did not articulate any conflict
between the decision below and this Court’s
precedents. Petitioner makes a cursory argument
that the decision below is contrary to Blonder-Tongue
Labs, Inc. v. Univ. of Ill. Found., 402 U.S. 313 (1971),



8
but fails to explain what the alleged inconsistency is.
The statement from Blonder-Tongue cited by
Petitioner simply states the law as the Federal
Circuit applied it in this case. This Court held in
Blonder-Tongue that the operation of collateral
estoppel was not automatically accepted because the
patent owner “must be permitted to demonstrate, if
he can, that he did not have ‘a fair opportunity
procedurally, substantively and evidentially to
pursue his claim the first time.’” 402 U.S. at 333. The
Federal Circuit applied exactly that principle, citing
Blonder-Tongue and its progeny, in XY, LLC v. Trans
Ova Genetics, L.L.C., 890 F.3d 1282, 1294-95 (Fed.
Cir. 2018), to apply collateral estoppel to pending
infringement litigations based on the patent owner’s
full and fair opportunity to challenge the finding of
invalidity in the IPR. As Petitioner itself admitted in
the district court, XY LLC was the controlling
precedent here and Petitioner has failed to explain
how it is inconsistent with this Court’s decision in
Blonder-Tongue.
3.
Petitioner has waived the arguments made in
the Petition in two ways. First, as the Federal Circuit
found, Petitioner waived the arguments it makes in
its Petition concerning the application of collateral
estoppel because it failed to make them before the
district court. Pet. App. 9a. Petitioner does not
dispute the fact that it chose not to raise any
arguments in the district court opposing the entry of
judgment against it based on collateral estoppel
grounds. Petitioner addresses this critical issue only
in a single paragraph at the very end of the Petition—



9
without citing a single case supporting its view that it
was allowed to make its arguments for the first time
before the Court of Appeals. Petition at 13-14.
Second, as the Federal Circuit also found, Petitioner’s
challenges based on the constitutionality of the IPR
process itself, such as its Seventh Amendment and
Appointments Clause arguments, were raised and
rejected in the original appeal of the PTAB ruling.
Pet. App. 9a. Petitioner does not address this issue in
the Petition.
4.
This case would be a particularly inappropriate
vehicle to address the issues of the interrelationship
of PTAB decisions and co-pending infringement
litigations. As a result of Petitioner’s strategic
decision to agree to a stay of the district court
litigation before CBS’s post-trial motions were
decided and before judgment was entered, this Court
would be faced with multiple procedural and factual
issues to decide in the first instance. For example,
Petitioner admits that the PTAB’s invalidation of the
’504 patent was based on prior art references that
were different from any of the references that were
before the jury. See Petition at 8. In support of its
Petition, Petitioner asserts that because the
references were “similar,” the Reexamination Clause
is in play. Id. at 11. Indeed, Petitioner’s entire
Seventh Amendment argument is premised on the
jury having made a factual determination that was
inconsistent with the PTAB ruling—which would
require this Court to make a factual determination
whether the same operative facts were before the jury
and the PTAB. Because Petitioner chose not to raise



10
this issue and make this argument in the district
court litigation, this Court would have to resolve the
factual issue of whether the references were the same
in the first instance. Moreover, because the district
court never had an opportunity to rule upon CBS’s
post-trial motions, it is far from clear that Petitioner’s
challenge to the application of collateral estoppel here
would be dispositive to this case. CBS had raised
multiple other grounds in its post-trial motions for the
district court to enter judgment in its favor that would
not be impacted by the issues raised in the Petition.
5.
The decision below rests on a straightforward
application of collateral estoppel and waiver law to
the facts of this case. Petitioner admitted that the
issue of whether a party is collaterally estopped from
continuing to assert infringement claims when those
claims have been finally determined to be invalid has
been addressed by the Federal Circuit in numerous
cases, including XY, LLC, 890 F.3d 1282. Petitioner
fails to explain precisely what fundamental error it
contends was made below. At its heart, the Petition
is asserting that, in the particular facts and
circumstances of this case, collateral estoppel was
improperly applied.
Even putting aside the
fundamental issues of Petitioner’s waiver of these
arguments by failing to raise them below and the
improper collateral attacks on the PTAB decision, the
Petition does not argue that this case has any broader
impact beyond the dispute between these two parties.
The Petition fails to show that there was a
fundamental error with the Federal Circuit’s
affirmance that warrants further review.

11
CONCLUSION
The Petition for a writ of certiorari should be
denied.
Respectfully submitted,
Steven M. Lieberman
Counsel of Record
ROTHWELL, FIGG, ERNST & MANBECK, P.C.
607 14th Street, N.W., Suite 800
Washington, DC 20005
Telephone: 202-783-6040
slieberman@rfem.com
Attorneys for Respondent
CBS Corporation
Dated: October 1, 2020

